No.

IN THE SUPERME COURT OF THE UNITED STATES

David K. Horsley - Petitioner
VS.
State Of Ohio - Respondent

PROOF OF SERVICE

I do swear that on this date, 5th of October, 2021, as required by Supreme Court
Rule 29,1 have served the enclosed MOTION TO PROCEED IN FORMIAN PAUPERIS
AND PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing an
envelope containing the above documents in the United States mail properly addressed to
each of them and with first class postage prepaid or by delivery to a third party commercial
carrier for delivery within 3 calendar days.
The names and addresses are as follows:

David Yost, Attorney General for the State of Ohio,
30 E Broad St 14th FI, Columbus, OH 43215, (614) 466-4986.

I declare under penalty of perjury that the foregoing is true and correct.
Executed on the 5th, October 2021.

i

J/
David K. Horsley
500 Engle Dr. Apt 537,
McArthur, Ohio 45651
(740) 357-8041
Pro Se, Petitioner

RECEIVED
OCT 1 3 2021

